May 1, 2007

WILLIAM P. GALLIGAN
SENIOR VICE PRESIDENT, OPERATIONS

KATHLEEN AINSWORTH
VICE PRESIDENT, DELIVERY AND RETAIL

AREA VICE PRESIDENTS

SUBJECT:      Audit Report – Management of Administrative Vehicles
              (Report Number DR-AR-07-007)

This report presents the results of our audit of the management of administrative
vehicles. U.S. Postal Service Headquarters Delivery and Retail Vehicle Operations
management requested a nationwide review of administrative vehicles (Project Number
06XG045DR000). Our objective was to assess the management and control of
administrative (non-mail hauling) vehicles used in support of Postal Service operations.
Specifically, we determined whether the number of administrative vehicles used to
support operations was necessary and whether controls were adequate to support
efficient utilization.

Although recent reviews of the delivery vehicle fleet, by both headquarters and the U.S.
Postal Service Office of Inspector General (OIG), increased awareness of use for all
Postal Service vehicles, management could further improve its control over
administrative vehicles. Specifically, the Postal Service had 587 underutilized/excess
administrative vehicles in support of a variety of operations. Several factors contributed
to this condition. Management did not have guidelines to use when determining the
effective use of administrative vehicles. Additionally, Postal Service personnel primarily
focused on the management of delivery vehicles because of the size and cost of the
delivery fleet. Also, operating personnel did not consistently monitor, review, and report
administrative vehicle use. Finally, operations personnel did not always take advantage
of the vehicle motor pool concept. Eliminating these underused vehicles could save the
Postal Service over $1.3 million annually or over $2.7 million over the next 2 years.
(See Appendix A.) We will report the $2.7 million as funds put to better use in our
Semiannual Report to Congress.
We recommended the Senior Vice President, Operations, and the Vice President,
Delivery and Retail, coordinate with the area vice presidents to reduce the current
number of administrative vehicles and implement a policy to review use of all
administrative vehicles based on miles driven and days used. We also recommended
promoting the use of motor vehicle pools and reinforcing the policy to use and maintain
Postal Service Form 4570 to track miles and days used for owned and General
Services Administration leased vehicles.

Management agreed in principle with our findings, recommendations, and monetary
impact and has initiatives completed and planned addressing the issues in this report.
Management’s comments and our evaluation of these comments are included in this
report. The OIG considers recommendations 1 and 2 significant, and also considers the
support provided by management detailing corrective ongoing actions to be sufficient to
close these recommendations.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Deborah Kendall
Management of Administrative Vehicles                                                   DR-AR-07-007




                                        INTRODUCTION
Background                   An administrative vehicle is a non-mail hauling vehicle used
                             in support of Postal Service operations, such as field
                             supervisory visits. As of May 2006, the Postal Service had
                             over 6,800 administrative vehicles that were managed and
                             operated throughout the nine Postal Service areas. The
                             majority of these vehicles — 5,580 — were Postal Service-
                             owned, with annual operating costs of over $8.7 million. The
                             remaining 1,253 were General Services Administration
                             (GSA) administrative leased vehicles with annual rental
                             expenses of nearly $2.9 million.




                                              Example: Typical Administrative Vehicle


                             In January 2004, the former Vice President of Delivery and
                             Retail issued a letter outlining opportunities to improve
                             allocation of non-mail hauling vehicles based on a review of
                             utilization. In a reiteration of these requirements,
                             management reminded field users of their responsibility for
                             timely and accurate reporting of utilization data. The letter
                             also stated that if low utilization of vehicles was confirmed,
                             management should evaluate vehicles for redeployment or
                             replacement by leased vehicles, where suitable.
                             Additionally, the letter strongly recommended that area and
                             district personnel pursue the reasonable use of motor pools
                             in lieu of assigning vehicles to individuals.

                             Delivery and Retail, Vehicle Operations issued a policy in
                             May 2006 requiring all field personnel to obtain prior written
                             approval before initiating or renewing lease requests
                             through GSA. This change was made to provide greater
                             oversight of administrative leasing.




                                               1
Management of Administrative Vehicles                                           DR-AR-07-007



Objective, Scope,            Our objective was to assess the management and control of
and Methodology              administrative vehicles used in support of Postal Service
                             operations. Specifically, we determined whether (1) the
                             number of administrative vehicles used to support
                             operations was necessary and (2) controls were adequate to
                             support efficient utilization.

                             Using Vehicle Maintenance Accounting System (VMAS)
                             data, we performed a review of the utilization of all Postal
                             Service-owned vehicles from May 2005 through May 2006.
                             Using the GSA Fleet Drive Thru Report as of
                             October 31, 2006, we reviewed the average monthly
                             mileage of each administrative lease since its inception. We
                             captured vehicle usage data by mileage and days used and
                             verified the status and reporting of vehicle information with
                             Postal Service area and vehicle maintenance facility (VMF)
                             personnel.

                             We reviewed controls the Postal Service uses to monitor the
                             reporting and use of administrative vehicles. We
                             interviewed Delivery and Retail, Vehicle Operations
                             personnel to determine acceptable criteria for accessing
                             efficient utilization of administrative vehicles. We also
                             interviewed Postal Service area and VMF personnel to
                             discuss utilization criteria and obtain pertinent
                             documentation.

                             We conducted this audit from September 2006 through May
                             2007 in accordance with generally accepted government
                             auditing standards and included such tests of internal
                             controls as we considered necessary under the
                             circumstances. We tested the reliability of computer-
                             generated data through discussions with Postal Service
                             officials responsible for managing administrative vehicles
                             and a review of supporting documentation. We discussed
                             our observations and conclusions with management officials
                             and included their comments where appropriate.




                                               2
Management of Administrative Vehicles                                              DR-AR-07-007




Prior Audit Coverage         Vehicle Utilization – General Services Administration Leased
                             Vehicles (Report Number DR-AR-05-018, dated
                             September 29, 2005). The report outlined opportunities for
                             management to more effectively use Postal Service-owned
                             delivery vehicles before leasing GSA vehicles for delivery
                             operations. Eliminating 715 GSA leases nationwide and
                             using currently owned vehicles could save the Postal
                             Service over $1.7 million annually or over $5.3 million over a
                             3-year period. Management agreed with the findings and
                             recommendations.

                             Management of Delivery Vehicle Utilization (Report Number
                             DR-AR-06-005, dated June 14, 2006). Postal Service
                             officials maintained excess and underused delivery vehicles,
                             and they leased delivery vehicles from employees and
                             commercial vendors when Postal Service-owned vehicles
                             were available. Additionally, delivery officials did not monitor
                             the reasonableness of payments or the need for contracts
                             with employees for use of their personal vehicles. Improved
                             use of vehicles and use of excess delivery vehicles could
                             save the Postal Service more than $22 million in funds put to
                             better use and unrecoverable costs over a 2-year period.
                             Management agreed with the findings and
                             recommendations.




                                               3
Management of Administrative Vehicles                                             DR-AR-07-007



                                        AUDIT RESULTS
Administrative               Although recent reviews of the delivery vehicle fleet, by both
Vehicle Utilization          headquarters and the OIG, increased awareness of vehicle
                             use for all Postal Service vehicles, management could
                             further improve its control over administrative vehicles.
                             Specifically, the Postal Service had 587 underused/excess
                             administrative vehicles in support of postal operations.
                             Eliminating these underused vehicles could save the Postal
                             Service over $1.3 million annually or more than $2.7 million
                             over the next 2 years.

                             Four factors contributed to the underused/excess
                             administrative vehicles: not having utilization guidelines; a
                             reduced focus on administrative vehicles; inconsistent
                             monitoring, reviewing and reporting of administrative
                             vehicles; and not taking advantage of the motor pool
                             concept.

Utilization Guidelines       The Postal Service did not have any guidelines to determine
                             the effective use of administrative vehicles. In coordination
                             with Delivery and Retail, Vehicle Operations management,
                             the OIG originally identified administrative vehicles driven
                             500 miles or less and used less than 12 days monthly as an
                             opportunity for reduction. However, after considering the
                             uniqueness of certain cities/areas and individual vehicle
                             justifications, in coordination with management, we went
                             with a more conservative approach of identifying vehicles
                             driven less than 300 miles and used less than 12 days
                             monthly. Using this more conservative approach, Table 1
                             shows the Postal Service could reduce its 6,833 vehicle
                             administrative fleet by at least 587.




                                               4
Management of Administrative Vehicles                                                                       DR-AR-07-007




                Table 1. Administrative Vehicles—Potential for Reduction
                                                   Less    Less
                                                   than    than     Potential   Monthly
                            Total      Less than    400     300     for         Average       Annual Cost
               Areas       Vehicles    500 miles   miles   miles1   Reduction    Lease        (12 months)
                                                                                          2
             Cap Metro          629          110     87       65           65      $226        $176,280
                                                                             3
             Eastern            760          101     70       38          94        $203        228,984
                                                                             4
             Great Lakes        892          173    135      101          90        $204        220,320
                                                                             5
             New York           715          119    100       75          75        $208        187,200
             Northeast          533           75     51       31           31       $195          72,540
             Pacific            987          183    135       87           87       $175        182,700
             Southeast          666           45     26       13           13       $174          27,144
             Southwest          657           94     75       47           47       $194        109,416
             Western            994          159    108       85           85       $188        191,760
             Total            6,833        1,059    787      542          587                $1,396,344
             Source: Vehicle Maintenance Accounting Records May 2005 through May 2006; and GSA Fleet
             Drive-Thru Report, October 31, 2006


Administrative Vehicle                Postal Service personnel primarily focused on the
Focus                                 management of delivery vehicles because of the size and
                                      cost of the delivery fleet. Administrative vehicles did not
                                      receive as much focus because of their relative size and
                                      cost compared to the delivery vehicle fleet. However,
                                      immediately prior to and during our review, Postal Service
                                      Headquarters and area officials increased their focus on
                                      administrative vehicles and even eliminated some vehicles.
                                      For example, the New York Area eliminated 50 GSA leases,
                                      and in January 2006, the Southeast Area began monthly
                                      utilization reviews. In addition, the Eastern Area proactively
                                      began eliminating all GSA leases based on our review. In
                                      fact, during our audit the Eastern Area Vice President
                                      agreed to give up their administrative vehicle and use a
                                      motor pool vehicle, as an example to district personnel.

                                      Some area officials voiced concerns they were experiencing
                                      an increased need for administrative vehicles because
                                      delivery supervisors were refusing to use their personal
                                      vehicles to perform street supervisions. Even though a

1
  We evaluated owned vehicles for usage of less than 300 miles and less than 12 days and GSA-leased vehicles for
less than 300 miles. Miles and days are required to be reported for all administrative vehicles but GSA only requires
that miles be reported to them for leased vehicles.
2
  The Capital Metro Area has no leases, so the cost savings were calculated from the monthly cost of owning an
administrative vehicle plus the estimated net sales amount from each vehicle.
3
  The Eastern Area initiated action to eliminate a greater number of vehicles. Based on their action during the audit,
we increased the potential vehicle reduction to 94.
4
  We recommended eliminating fewer than the vehicles averaging less than 300 miles based on discussions with
Great Lakes Area officials and a reasonable reduction in comparison to the total size of the administrative fleet.
5
  The New York Metro Area did not consistently keep days used for owned vehicles so we used a lower than 300
miles monthly mileage to evaluate reduction opportunities.




                                                           5
Management of Administrative Vehicles                                             DR-AR-07-007



                             street supervision visit may only require driving a few miles,
                             supervisors cite the increased cost of motor vehicle
                             insurance, as well as increased liability exposure, as
                             rationale for requesting an administrative vehicle. While
                             administrative vehicles used for street supervisions will not
                             normally acquire many miles per month, ideally the Postal
                             Service would use these vehicles more than 12 days a
                             month, if street supervisions are conducted regularly.

                             Some Postal Service officials also voiced concerns that
                             vehicle use is not static. The OIG agrees with their
                             concerns and considered it in our analysis of vehicles to be
                             reduced. Specifically, we reviewed vehicle use for a year
                             and used the more conservative approach of eliminating
                             vehicles driven less than 300 miles monthly and used less
                             than 12 days monthly rather than vehicles driven less than
                             400 or 500 miles. Our recommendation also considers a
                             phased reduction approach and implementation of regular
                             utilization reviews.

Monitoring, Reviewing        Operating personnel did not consistently monitor, review,
and Reporting                and report administrative vehicle use. Although we
                             identified several areas that conducted reviews of
                             administrative vehicles, the reviews were conducted on an
                             ad hoc basis. Area, district, and/or VMF personnel did not
                             perform regular use reviews to identify reporting issues such
                             as mileage and days used, reallocations, and reductions of
                             vehicles.

                             The Postal Service had no policies in place requiring regular
                             reviews of administrative vehicle use. Area and VMF
                             officials stated it was not easy to query the VMAS for
                             reported miles and days used over a period of time.
                             Delivery and Retail, Vehicle Operations staff are working on
                             implementing a new database, Vehicle Operations
                             Information System (VOIS), within the next year. The
                             database should improve reporting and data management.

                             Also, employees did not consistently use the required Postal
                             Service (PS) Form 4570, Vehicle Time Record, to record
                             miles and days used per month. Further, management did
                             not always retain PS Form 4570 for the required time
                             periods. Area and VMF officials stated field personnel did
                             not always use PS Form 4570 because some of them were
                             unaware of the requirement to use it for GSA-leased




                                               6
Management of Administrative Vehicles                                            DR-AR-07-007



                             vehicles. Although personnel were aware of the
                             requirement to use PS Form 4570 to record mileage and
                             days for Postal Service-owned administrative vehicles,
                             some users were not consistently maintaining the form or
                             retaining the form for the required 3 months for owned
                             vehicles and 3 years after contract expiration for leased
                             vehicles.

Vehicle Motor Pools          Operations personnel did not always take advantage of the
                             vehicle motor pool concept. The use of motor pools was
                             strongly recommended in the former vice president’s letter
                             issued in January 2004. Although area and district
                             personnel established motor pools, management still
                             assigned vehicles using varying criteria — such as the
                             assignee’s title or position — or used more than the actual
                             days or miles a vehicle may be needed. Although area
                             officials said this policy might be an acceptable
                             management decision, it does not always lead to the best
                             use of an administrative vehicle.

Recommendation               We recommend the Senior Vice President, Operations, and
                             the Vice President, Delivery and Retail, coordinate with the
                             area vice presidents to:

                             1. Reduce the current number of administrative vehicles
                                used to support operations by 587 beginning with
                                considering the elimination of GSA leases. This can be
                                accomplished using a phased approach over a period of
                                time.

Management’s                 Management agreed in principle with the findings and
Comments                     recommendations in the report. Management stated that
                             since the beginning of fiscal year (FY) 2007, the Postal
                             Service has removed 324 non-mail hauling vehicles from
                             service without replacing them. Management further stated
                             that their objective is not to reduce the current non-mail
                             hauling vehicle inventory by a specific number, but rather to
                             focus on improving vehicle utilization reporting, providing
                             adequate vehicle resources, and supporting vehicle
                             replacements. Management stated as vehicle operations
                             continue to push for greater vehicle accountability, the
                             number of vehicles will continue to reduce.




                                               7
Management of Administrative Vehicles                                                            DR-AR-07-007




Evaluation of                    Management’s comments were responsive to our finding
Management’s                     and recommendation. Management’s actions are sufficient
Comments                         to address the issues in the finding. Although management
                                 did not specifically state they would reduce the
                                 administrative vehicle fleet by 587, they agreed to
                                 implement the criteria we used to determine the minimum
                                 number of vehicles they could eliminate and to implement
                                 regular reviews for efficient administrative vehicle utilization.
                                 Additionally, in subsequent discussions, 6 management
                                 agreed with the overall intent to reduce the number of
                                 vehicles and the resulting potential monetary benefits of
                                 $2,700,000.

Recommendations                  2. Implement a policy to review use of all administrative
                                    vehicles based on miles driven and days used every
                                    6 months.

                                 3. Strongly promote the use of administrative vehicles in a
                                    motor vehicle pool rather than assignment to individual
                                    employees, unless absolutely necessary.

                                 4. Reinforce the policy to use and maintain Postal Service
                                    Form 4570, Vehicle Time Record, to track miles and
                                    days used for owned and General Services
                                    Administration leased vehicles.

Management’s                     Management agreed with recommendations 2, 3, and 4.
Comments                         Management stated that after consulting with the OIG team
                                 and area office representatives, the operations group has
                                 decided to implement a minimum non-mail hauling vehicle
                                 utilization standard of 300 miles or 12 days of use per
                                 month. The policy will include requirements for all user
                                 groups to perform a utilization review every 6 months. The
                                 policy statement will include language addressing the
                                 increased use of pool vehicles and reinforce the requirement
                                 to accurately record vehicle utilization. Operations will issue
                                 the new standard policy7 by May 2007.


6
 Further discussions were held on April 12, 2007, with Headquarters, Vehicle Operations personnel.
7
 Management's comments indicated that the revised policy would apply to OIG. OIG does voluntarily comply with
USPS policy, where appropriate.




                                                       8
Management of Administrative Vehicles                                       DR-AR-07-007




Evaluation of                Management’s comments were responsive to our findings
Management’s                 and recommendations. Management’s actions are sufficient
Comments                     to address issues identified in the findings.




                                             9
Management of Administrative Vehicles                                         DR-AR-07-007



                            APPENDIX A
               CALCULATION OF FUNDS PUT TO BETTER USE

As shown in the table below, the OIG identified $1,396,344 in funds put to better use
annually and $2,715,468 million over 2 years. The OIG calculated the cost savings
(based on a reduction of 587 vehicles) by first attempting to eliminate GSA leases,
except for the Capital Metro Area which must reduce Postal Service-owned vehicles in
the absence of any leasing.

The OIG calculated the average cost of a GSA lease for each area office by using the
rates of all current administrative leases. For the Capital Metro Area, the monthly cost
of an owned vehicle was determined using the Make/Model Component Cost Report
less depreciation, fuel/oil and distributed VMF overhead costs plus the estimated net
sales amount of the vehicles. The annual costs were projected over 2 years.

      Elimination of Administrative Vehicles           Annual             2 Years
Elimination of 65 Postal Service-owned vehicles in      $176,280              $275,340
the Capital Metro Area (65 x $127 owned average
monthly cost per vehicle x 12 months) plus (65 x $99
monthly equivalent net sales amount x 12 months)

Elimination of 94 GSA leases in the Eastern Area           228,984             457,968
(94 x $203 average monthly rate x 12 months)

Elimination of 90 GSA leases in the Great Lakes            220,320             440,640
Area (90 x $204 average monthly rate x 12 months)

Elimination of 75 GSA leases in the New York Metro         187,200             374,400
Area (75 x $208 average monthly rate x 12 months)

Elimination of 31 GSA leases in the Northeast Area          72,540            $145,080
(31 x $195 average monthly rate x 12 months)

Elimination of 87 GSA leases in the Pacific Area (87       182,700             365,400
x $175 monthly rate x 12 months)

Elimination of 13 GSA leases in the Southeast Area          27,144              54,288
(13 x $174 monthly rate x 12 months)

Elimination of 47 GSA leases in the Southwest Area         109,416             218,832
(47 x $194 monthly rate x 12 months)

Elimination of 85 GSA leases in the Western Area           191,760             383,520
(85 x $188 monthly rate x 12 months)
                   Total Savings                        $1,396,344          $2,715,468




                                               10
Management of Administrative Vehicles                 DR-AR-07-007



                  APPENDIX B. MANAGEMENT’S COMMENTS




                                        11
Management of Administrative Vehicles        DR-AR-07-007




                                        12
